   August 29, 2006




Acquisition
Response to Congressional Requests
on the Water Delivery Contract
Between the Lipsey Mountain Spring
Water Company and the United
States Army Corps of Engineers
(D-2006-109)




            Department of Defense
           Office of Inspector General
Quality              Integrity       Accountability
  Additional Information and Copies

  The Department of Defense Office of the Deputy Inspector General for Auditing,
  Defense Financial Auditing Service prepared this report. If you have questions or
  would like to obtain additional copies of the draft report, contact Ms. Lorin T. Pfeil
  at (703) 325-5568 (DSN 221-5568) or Mr. Dana E. Whiting at (703) 325-6634
  (DSN 221-6634).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACI                   Advanced Contracting Initiatives
CEFMS                 Corps of Engineers Financial Management System
CONUS                 Continental United States
DHS                   Department of Homeland Security
FAR                   Federal Acquisition Regulation
FEMA                  Federal Emergency Management Agency
GAO                   Government Accountability Office
NRP                   National Response Plan
OCONUS                Outside the Continental United States
OIG                   Office of Inspector General
RFP                   Request-for-Proposal
TRC                   TRC, Incorporated
USACE                 United States Army Corps of Engineers
               Department of Defense Office of Inspector General
Report No. D-2006-109                                                     August 29, 2006
 (Project No. D2006-D000FE-0091.000)

  Response to Congressional Requests on the Water Delivery Contract
      Between the Lipsey Mountain Spring Water Company and
              the United States Army Corps of Engineers

                                 Executive Summary

Who Should Read This Report and Why? Members of Congress, United States Army
Corps of Engineers contracting officials, emergency management personnel, and
technical evaluation teams should read this report. This report discusses the award
process and the administration of the water delivery contract used in emergency
situations.
Background. Congressman Christopher Shays requested that the DoD Office of
Inspector General review the award process of the contract between the Lipsey Mountain
Spring Water Company and the United States Army Corps of Engineers for the
procurement and delivery of emergency water. He also requested a review of the Lipsey
Mountain Spring Water Company’s ability to meet contract requirements for supplying
water in the event of a domestic emergency. In addition, Congressman Bennie
Thompson requested a determination on whether the Lipsey Mountain Spring Water
Company owed TRC, Incorporated, a subcontractor, several million dollars.

This report will be followed by a second report that addresses other issues identified in
the administration of the water delivery contract. These reports are part of a series of
reports that will be issued by the DoD Office of Inspector General discussing the use of
DoD resources in support of Hurricane Katrina recovery efforts.

Results. The contract between the Lipsey Mountain Spring Water Company and the
United States Army Corps of Engineers for the procurement and delivery of water was
properly awarded. The Lipsey Mountain Spring Water Company delivered emergency
water to specific sites throughout the United States since April 2003; however, the
company did not consistently meet time performance requirements of the contract. In
addition, the Lipsey Mountain Spring Water Company might not be capable of
functioning as the water supplier in an emergency outside the continental United States.
Finally, the Lipsey Mountain Spring Water Company no longer owes several million
dollars to TRC, Incorporated.

Management Comments. We received editorial comments on a discussion draft from
the United States Army Corps of Engineers in a memorandum on August 10, 2006.
Although the comments were received too late to be considered for the draft report, we
considered them in preparing the final report. We provided a draft of this report on
August 3, 2006. No written response to the report was required, and none was received.
Therefore, we are publishing this report in final form.


                                             i
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             2

Finding
     Congressional Inquiries Regarding the Emergency Water Contract
          Awarded to Lipsey Mountain Spring Water Company              3

Other Matters of Interest                                             10

Appendixes
     A. Scope and Methodology                                         11
          Prior Coverage                                              12
     B. Congressional Requests                                        13
     C. Report Distribution                                           16
Background
    We will be issuing two reports discussing procurement of water for emergency
    situations. The first report addresses the inquiries made by Congressman
    Christopher Shays and Congressman Bennie Thompson. See Appendix B for
    copies of the two Congressional requests. The second report will address other
    issues identified in the administration of the water delivery contract. Both reports
    are part of a series of audit reports to be issued by the DoD Office of Inspector
    General discussing the use of DoD resources in support of the Hurricane Katrina
    recovery efforts.

    2004 National Response Plan. The 2004 National Response Plan (NRP) is
    designed to provide structure for effective and efficient incident management
    among Federal, State, and Local emergency management agencies. The NRP
    includes 15 emergency support functions, which detail the missions, policies,
    structures, and responsibilities of Federal agencies for coordinating resource and
    programmatic support. The United States Army Corps of Engineers (USACE) is
    primarily responsible for one of the 15 functions, namely Emergency Support
    Function #3, “Public Works and Engineering.” Emergency Support Function #3
    includes contracting for water in emergency situations.

    The 2004 NRP not only involved USACE under DoD, but commits all Federal
    departments to cooperate with the Department of Homeland Security (DHS) in
    emergency and disaster situations. DHS is the prime Federal agency for
    responding to emergencies and, under the “Homeland Security Act of 2002”
    (Public Law 107-296), is allowed to coordinate with personnel from other
    agencies to accomplish its mission. The Federal Emergency Management
    Agency (FEMA), part of DHS, is responsible for coordinating the Federal
    response to emergencies and disasters. In an effort to execute a quick response in
    these situations, USACE developed the Advanced Contracting Initiatives (ACI).
    In 1999, USACE developed ACI for ice, water, power, temporary roofing, and
    debris removal.
    Advanced Contracting Initiatives and Issuance of Water Contracts. Under
    the ACI, requirements contracts are awarded pre-disaster and provide USACE
    contracting personnel the ability and flexibility to place delivery orders after a
    disaster at the pre-negotiated rate for these supplies and services. Prior to the
    development of ACI, USACE procured water after the emergency happened,
    delaying the response time and adding additional costs.

    Requirements Contracts. Requirements contracts provide a method of filling
    the actual needs of the designated activity by placing delivery orders against the
    contract. The Federal Acquisition Regulation (FAR) 16.503, “Requirements
    Contracts,” provides the following guidance for requirements contracts.

       •   An estimate for goods or services may be included in the contract based
           on past usage or other available information.

       •   If feasible, the contract shall state a maximum purchase requirement and
           may specify a minimum and maximum amount for each delivery order,
           and a maximum amount during a specified time period.


                                          1
     Contract DACW33-03-D-0003. The USACE New England District awarded
     this firm-fixed price requirements contract as a small-business set-aside to Lipsey
     on April 1, 2003. The contract covered a base-year period of April 1, 2003, to
     March 31, 2004, with 4 option years. As of April 1, 2006, USACE had exercised
     Option Year 3 of the contract, which covers the period from April 1, 2006, to
     March 31, 2007. This contract was based on the previous 3-year national
     requirements contract issued by the Wilmington District on July 27, 1999. Five
     USACE Districts (Jacksonville District, Florida; Mobile District, Alabama; New
     England District, Massachusetts; Norfolk District, Virginia; and Wilmington
     District, North Carolina) have obligated approximately $146 million and
     disbursed nearly $81 million against the contract, as of June 23, 2006. The
     purpose of the contract is to provide bottled water, including transportation,
     loading/unloading, drayage, and additional ground mileage to locations within the
     continental United States (CONUS) and outside the continental United States
     (OCONUS) in response to domestic emergencies.

Objectives
  Our overall audit objectives were to address two congressional requests pertaining to
  the award and administration of the water delivery contract between Lipsey and
  USACE and determine whether Lipsey owed TRC, Incorporated (TRC) several
  million dollars. Specifically, we reviewed the contract award between Lipsey and
  USACE for the procurement and delivery of water, we reviewed Lipsey’s ability to
  meet contract requirements for supplying water in the event of a domestic emergency,
  and we determined whether Lipsey owed TRC several million dollars in support of
  water deliveries. See Appendix A for scope and methodology and prior audit
  coverage.




                                          2
           Congressional Inquiries Regarding the
           Emergency Water Contract Awarded to
           Lipsey Mountain Spring Water Company
           USACE New England District personnel fairly and properly awarded the
           emergency water contract to Lipsey on March 31, 2003, with a base year
           and 4 option years. Specifically, New England District personnel:

              •   used the 1999 contract as a template for the solicitation of the 2003
                  contract;

              •   properly established the 2003 contract;

              •   restricted and awarded this contract as a small-business set-aside;

              •   advertised the solicitation on www.fedbizopps.com;

              •   provided industry sufficient time to submit their proposal;

              •   received five proposals to the solicitation, of which two were
                  initially discarded;

              •   properly conducted and documented the contract pre-award and
                  award; and

              •   provided the overall best value for the Government through the
                  contract award to Lipsey.

           While Lipsey has delivered emergency water to specific sites throughout
           the United States since April 2003, the company did not consistently meet
           time performance requirements of the contract. Additionally, Lipsey
           might not be capable of functioning as the supplier of water for OCONUS
           locations because Lipsey underestimated OCONUS air transportation
           costs in their original proposal. As a result, Lipsey could earn fewer
           profits or potentially default on the contract if tasked to supply water to
           OCONUS locations.

           We also determined that Lipsey no longer owes several million dollars to
           TRC.


Emergency Water Contract
    USACE awarded two requirements contracts for water as part of the ACI. On
    July 27, 1999, the Wilmington District awarded contract DACW54-99-D-0006
    for the procurement and delivery of water by International American Products,
    Worldwide Services. The New England District resolicited this contract on
    December 17, 2002, and awarded contract DACW33-03-D-0003 to Lipsey on
    March 31, 2003.


                                        3
    Pre-1998 Water Delivery Contract. Prior to 1998, contracting for water was
    performed subsequent to the occurrence of a disaster or emergency. Purchase
    orders and contracts were entered into using sealed bids or negotiated procedures.
    Protests and alleged mistakes in the bids delayed the awarding of contracts, and
    substantial delays in water delivery were common.

    1998 Water Delivery Contract. In 1998, the South Atlantic Division in Atlanta,
    Georgia, tested the use of firm-fixed-price, indefinite delivery-indefinite quantity
    contracts for performing water missions. Solicitations were issued using
    negotiated, best value source selection procedures to make multiple source
    selections and awards. This gave the Government reserved rights to make any
    such contract awards to the selected sources through November 30, 1998.

    1999 Water Delivery Contract. USACE's analysis of the water mission resulted
    in a determination to award a single, firm fixed-price national requirements
    contract for use by all USACE Districts. USACE's experience demonstrated that
    the increased efficiencies achieved under one national contract greatly improved
    its readiness to perform the water mission. As time is of the essence in
    responding to a disaster or emergency, this method of contracting fulfills
    USACE's need to provide water in an immediate, efficient, and cost-effective
    manner to states and local governments. Furthermore, the contract enabled
    USACE to better provide water when and where it was needed than with multiple
    award contracts.

    The 1999 contract was solicited and awarded by the Wilmington District to
    International American Products, Worldwide Services, as a small-business set-
    aside. The contract line items included the purchase and transportation of water
    within CONUS, Alaska, Hawaii, the Virgin Islands, Guam, and Puerto Rico. On
    March 20, 2002, the contract’s administration was transferred to the New England
    District. When the New England District decided to re-solicit the contract in
    2002, they followed the format and requirements defined in the original contract.

    Single Award Decision. USACE decided to award a single contract rather than
    multiple contracts to provide water. For both the 1999 and 2003 contracts,
    USACE contracting officers stated that making multiple awards would have
    ultimately led to higher administrative costs to the Government. The New
    England District provided a copy of the Acquisition Plan that documented this
    decision and is part of the contract files. During disasters, resources for the
    procurement of water are limited. If multiple awards were made, contractors
    would compete with each other for the use of subcontractors and ultimately end
    up incurring additional costs that would be priced into the proposals.


Congressional Inquiries and DoD OIG Responses
    The DoD Office of Inspector General (OIG) received two congressional requests
    to review the award and administration of the water delivery contract between
    Lipsey and USACE and to determine whether Lipsey owed TRC several million
    dollars. Specifically, Congressman Shays requested that we review the award
    process of the contract between USACE and Lipsey for the procurement and


                                         4
delivery of emergency water and review Lipsey’s ability to meet contract
requirements for supplying water in the event of a domestic emergency. In
addition, Congressman Thompson requested that we determine whether Lipsey
owed TRC several million dollars. The three issues identified by Congressmen
Shays and Thompson are discussed in the following paragraphs along with DoD
OIG responses.

Congressman Shays Inquiry Number 1. Review the award process of the
contract between Lipsey and USACE for the procurement and delivery of
emergency water.

DoD OIG Response. We determined that the contract between Lipsey
and USACE for the procurement and delivery of water was properly
awarded. Specifically, New England District personnel properly
conducted the contract solicitation, pre-award, and award phases of the
firm-fixed price requirements contract, and therefore appropriately
awarded contract DACW33-03-D-0003 to Lipsey.
   Contract Solicitation. On November 1, 2002, the New England District
   submitted an announcement for the upcoming contract to
   www.fedbizopps.com. The announcement stated that the solicitation would
   be available via the Internet on or about November 18, 2002. On
   December 17, 2002, the New England District issued Request-for-Proposal
   (RFP) DACW33-03-R-0005. The RFP included Clause 52.215-1, which
   stated that the Government was to award the contract without discussion, and
   also stated that the proposal must be complete and contain the offeror's best
   terms. The RFP stated that all proposals were due at 4:30 p.m. on February 3,
   2003. Thus, adequate response time was given to provide a proposal for this
   contract.

   Prior to release of the RFP DACW33-03-R-0005, USACE issued their Source
   Selection Plan, which established the technical and cost criteria and the
   methodology used in the evaluation process to award the contract.

   Contract Pre-Award. Five companies submitted a proposal to the New
   England District in response to RFP DACW33-03-R-0005. USACE
   evaluated and assessed the proposals solely on factors and subfactors
   specified in the solicitation. Two proposals were initially determined to be
   unacceptable. Each of the proposals lacked information as required by the
   RFP. After reviewing the two proposals, we determined neither proposal
   adequately provided the necessary information as required by the RFP and
   concur with USACE's decision. The decision to eliminate the two proposals
   left three competitive proposals to evaluate. USACE eliminated another
   proposal from consideration, as the proposal lacked sufficient details, and
   thus, did not have a reasonable chance of being selected. After reviewing the
   proposal, we determined that the proposal did not provide adequate
   information as required by the RFP and concur with USACE's decision not to
   advance this proposal.

   USACE held discussions with the two offerors in the competitive range.
   After reviewing the information received from the two offerors, the Source
   Selection Authority in the New England District requested a best and final


                                    5
   offer from each company and then prepared proper documentation that
   explained the results of the final evaluation of the two proposals. Because
   price was ultimately the determining factor in the contract award, we
   reviewed the price analysis spreadsheet that was used by USACE personnel,
   and also created three spreadsheets of our own to compare the pricing for the
   Base Year, Option Year 1, and Option Year 2. Based on our calculations, the
   other bidder’s costs in the Base Year, Option Year 1, and Option Year 2 were
   generally higher than Lipsey’s costs.

                   Table 1. General Comparison of the Proposed Costs
          Company            Base Year       Option Year 1       Option Year 2
            Lipsey             Lower              Lower              Lower
         Bidder No. 2          Higher             Higher             Higher

   Although the other offeror’s proposal was technically rated higher than the
   Lipsey proposal, through a trade-off analysis, the Source Selection Authority
   in the New England District determined that the other proposal, which was at
   a higher cost, would not best serve the Government. Therefore, based on the
   proposals and documentation reviewed, the Lipsey proposal represented the
   best overall value for the Government and was fairly selected for the award of
   the emergency water contract.

   Contract Award. On March 14, 2003, the Source Selection Authority in the
   New England District selected Lipsey for contract award, based on the fact
   that Lipsey provided the overall best value to the Government. On
   March 31, 2003, contract DACW33-03-D-0003 was signed between the New
   England District, on behalf of the United States Government, and the Lipsey
   Mountain Spring Water Company. The effective date of contract DACW33-
   03-D-0003 was April 1, 2003. The New England District informed the
   unsuccessful offerors of their decision to select Lipsey for contract award.
   The notification properly stated the name and address of Lipsey, that the
   Government would not consider subsequent revisions to the proposal, and that
   a response was not required unless a basis existed to challenge the small
   business size status of Lipsey.

Congressman Shays Inquiry Number 2. Review Lipsey’s ability to meet
contract requirements for supplying water in the event of an emergency.

DoD OIG Response. While Lipsey has delivered emergency water to specific
sites throughout the United States since April 2003, the company did not
consistently meet time performance requirements of the contract. Additionally,
Lipsey might not be capable of functioning as the sole source supplier of
emergency water for OCONUS locations because Lipsey underestimated
OCONUS air transportation costs in their original proposal under the firm-fixed
price contract. As a result, Lipsey could earn fewer profits or potentially default
on contract DACW33-03-D-0003 if tasked to supply bottled water to OCONUS
locations, which could affect the lives of millions of people.

   CONUS Water Deliveries. Based on our analysis, Lipsey has adequately
   functioned as the sole-source provider of emergency water supplies, based on



                                     6
the performance delivery requirements set forth in the contract and the scope
and nature of the missions assigned to Lipsey.
We examined water delivery documentation dated between September 2003
and January 2006 in support of the 2003 through 2005 hurricane seasons and
determined that, while Lipsey was able to deliver many trucks to specific
sites, the company did not consistently meet the time performance
requirements of the contract. The 2005 hurricane season was significantly
more active than predicted during the contract’s initial solicitation and may
have affected Lipsey’s overall performance. However, this issue will be
addressed in the second audit report.

OCONUS Water Deliveries. Lipsey might not be capable of functioning as
the sole-source supplier of emergency water for OCONUS locations, such as
Puerto Rico. For example, in Option Year 3 of the contract, should USACE
task Lipsey to procure and ship bottled water by air to Puerto Rico,
reimbursement is limited to a firm-fixed price of $1.84 per liter. Because
USACE has never tasked Lipsey to deliver emergency bottled water by air to
OCONUS under the contract, factual OCONUS air transportation cost data
were not available for analysis. However, we were able to establish that
Lipsey charged USACE $4.61 per liter for air shipments of water within
CONUS. Specifically, in September 2005, Lipsey delivered 1,782,000 liters
of water by air within CONUS. The Wilmington District and Lipsey
negotiated a price of $4.61 per liter for the air shipment because the original
contract did not include a firm-fixed price for air shipments within CONUS.
Contract Modification P00002 authorized the price negotiation on CONUS air
shipments.
If the $4.61 per liter accurately reflects Lipsey’s expenses for CONUS
shipments, then a comparison of the CONUS negotiated price of $4.61 per
liter paid in September 2005 to the firm-fixed price of $1.84 allowable for
OCONUS air shipments shows Lipsey could potentially lose $2.77
($4.61-$1.84) on each liter shipped by air to Puerto Rico. During Hurricane
Georges in September 1998, the Government shipped nearly 34 million liters
of water to Puerto Rico. If a similar emergency arose in Option Year 3 of the
Lipsey contract and USACE directed an air shipment of 34 million liters,
Lipsey could potentially lose more than $94 million (34 million liters times
$2.77 per liter) (see Table 2). According to Lipsey, the company has already
had to borrow several million dollars. Therefore, this potential loss could
cause a financial burden for Lipsey or cause Lipsey to default on the contract.

           Table 2. Comparison of 2005 CONUS Negotiated Price to
                     the Contract 2006 Option Year 3 OCONUS Cost
                       2005 CONUS        2006 Contract    Potential Loss
                           Cost          OCONUS Cost
      Quantity              34,000,000         34,000,000       34,000,000
   Price per Liter               $4.61              $1.84            $2.77
        Total             $156,740,000        $62,560,000      $94,180,000




                                 7
   Lipsey may incur a substantial loss on OCONUS air shipments because the
   company underestimated air transportation costs in Option Year 3 and Option
   Year 4. During an emergency, such as in Hurricane Georges, Lipsey could
   earn fewer profits or potentially default on the contract if tasked to ship
   similar quantities of water.

Corrective Actions. These issues and recommended corrective actions will be
addressed in the second audit report.

Congressman Thompson Inquiry. Determine whether Lipsey owed TRC
several million dollars.

DoD OIG Response. We determined that Lipsey no longer owes several million
dollars to TRC.

   Status of Payments. On March 28, 2006, the DoD OIG mailed an Accounts
   Receivable confirmation letter to TRC to establish the amount owed to TRC,
   from Lipsey, as of January 31, 2006. TRC did not complete and return the
   Accounts Receivable confirmation letter as requested. Alternatively, TRC
   provided a Microsoft Excel spreadsheet showing that Lipsey had paid all but
   $24,687.20 of $1,547,928.95 billed, as of November 18, 2005. Because TRC
   did not respond to the Accounts Receivable confirmation letter, we were
   unable to confirm the status of the remaining $24,687.20, as of January 31,
   2006. Therefore, we relied on Lipsey’s Accounts Payable Aging Report,
   dated
   March 28, 2006, which showed no past due balance with TRC.

   To determine whether Lipsey owed TRC several million dollars in support of
   water deliveries, a site visit was conducted at TRC. Based on our visit,
   discussions held with TRC representatives, and review of TRC
   documentation, we noted the following:

       • TRC invoiced Lipsey for a total amount of $3,425,523.80
         ($1,029,636.79 for ice purchases, $366,725.31 for ice transportation,
         $471,628.80 for water purchases, and $1,557,532.90 for water
         transportation). At the time the issue was forwarded to Congress in
         November 2005, the majority of the $3,058,798.49 had not been paid.
         Therefore, based on TRC’s documentation, Lipsey owed TRC several
         million dollars.

       • TRC was not able to provide us with documentation to support invoices
         to Lipsey for $1,029,636.79 in ice purchases and $366,725.31 for ice
         transportation. However, TRC representatives informed us that these
         outstanding amounts have been paid by Lipsey since November 2005.




                                   8
   • TRC invoiced Lipsey for $471,628.80 in water purchases. Of this
     amount, Lipsey paid $469,036.80 (99 percent). The $2,592.00
     difference was composed of $6,019.20 in water purchases that were
     disallowed by Lipsey, $3,024.00 in water purchase that was added by
     Lipsey for a non-invoiced shipment, and a $403.20 overpayment on a
     single water purchase (see Table 3).

           Table 3. Breakdown of the Difference for the Water Purchase
                    Reason                              Amount
             Disallowed by Lipsey                                 $6,019.20
             Non-Invoiced Payment                                ($3,024.00)
         Overpayment on Water Purchase                             ($403.20)
                     Total                                        $2,592.00

   • TRC invoiced Lipsey for $1,557,532.90 in water transportation. Of this
     amount, Lipsey paid $1,523,241.75 (97 percent) and disallowed
     approximately $34,291.15.

According to TRC, the following reasons were cited by Lipsey for the
disallowed water purchases and deliveries.

   • TRC miscalculated trucker detention charges. Specifically, TRC was
     charging for both hours and miles simultaneously. Lipsey had also
     changed these rates based on information provided by the USACE.

   • A mandatory deduction of 2 hours per water delivery was applied to
     TRC water deliveries. TRC documentation showed that Lipsey
     required that 2 hours be deducted from the total time of the delivery for
     each water shipment. However, justification for this deduction was not
     provided to TRC. Furthermore, TRC was unable to provide us with
     any delivery agreements or contracts TRC had made with Lipsey prior
     to these shipments.

   • Some supporting documentation provided was either inadequate or
     nonexistent.
   • One water product was classified as undeliverable.

Based upon the review of TRC documentation, we determined that water
payments to TRC by Lipsey were not timely. Specifically, Lipsey provided
TRC with purchase orders dated September 2 and September 9, 2005, with
payment terms of 30 days. TRC originally invoiced Lipsey for these purchase
orders on September 10 through September 16, 2006. However, payments of
these invoices did not begin until October 28, 2005. TRC presented
documentation that showed that Lipsey provided payments for this and other
work on November 25, December 16, and December 19, 2005. These dates
are well after the payment term and indicate significant delays in the payment
process. We are unable to determine whether the delay in payment is a result
of actions by Lipsey, USACE, or a combination thereof at this time. We are
continuing to review this matter to determine if it warrants further attention.




                                 9
        Therefore, we determined that, while Lipsey did at one time owe TRC several
        million dollars, Lipsey has made payments to TRC and no longer owes this
        amount to TRC.


Other Matters of Interest
     We identified potential contract administration issues related to contractor
     performance of water deliveries, bottled water storage, and supporting
     documentation. These issues may have raised the cost to the Government during
     hurricane recovery efforts. The second report will discuss issues related to the
     procurement of water and administration of the contract.




                                        10
Appendix A. Scope and Methodology
   At the request of Congressmen Christopher Shays and Bennie Thompson, we
   conducted a review of the contract between Lipsey and USACE for the
   procurement and delivery of water to determine Lipsey’s ability to meet contract
   requirements for supplying water in the event of a domestic emergency and to
   determine whether Lipsey owed TRC several million dollars.

   We reviewed applicable sections of the FAR Parts 3 “Improper Business Practices
   and Personal Conflicts of Interest,” 4 “Administrative Matters,” 5 “Publicizing
   Contract Actions,” 6 “Competition Requirements,” 9 “Contractor Qualifications,”
   14 “Sealed Bidding,” 15 “Contracting by Negotiating,” 16 “Types of Contracts,”
   19 “Small Business Programs,” 32 “Contract Financing,” 42 “Contract
   Administrative and Audit Services,” 43 “Contract Modifications,” and 49
   “Termination of Contracts.” We also reviewed the “2004 National Response
   Plan,” the “Emergency Support Function #3—Public Works and Engineering
   Annex,” Engineering Federal Acquisition Regulations pertaining to “Federal
   Acquisition Regulations System,” and DoD regulations.
   We reviewed contract DACW33-03-D-0003, dated March 31, 2003, to determine
   whether USACE properly awarded and administered the contract, and properly
   solicited to small businesses. We obtained and reviewed the acquisition plan,
   RFP, source selection and evaluation documentation, cost estimates, and
   proposals from other offerors.

   We conducted a site visit to the USACE New England District in Concord,
   Massachusetts to respond to Congressman Shays’ first inquiry. We also visited
   the USACE Wilmington District in Wilmington, North Carolina, and the USACE
   Mobile District in Mobile, Alabama, to respond to Congressman Shays’ second
   inquiry and Congressman Thompson’s inquiry. These two Districts were
   responsible for approximately $135 million out of the $146 million (92 percent)
   obligated against this contract. Further, we visited the Lipsey Mountain Spring
   Water Company in Norcross, Georgia, and one of Lipsey’s subcontractors, TRC
   Incorporated, in New Plymouth, Idaho. Finally, we conducted data calls with the
   USACE Finance Center in Millington, Tennessee and with seven of Lipsey’s
   subcontractors. We also conducted interviews with USACE, Lipsey, and TRC
   personnel. We reviewed FEMA Task Orders, USACE Delivery Orders, and
   supporting documentation to support our conclusions.

   We performed this audit from November 2005 through June 2006 in accordance
   with generally accepted government auditing standards. The audit scope was
   limited to the two congressional requests.

   Use of Computer-Processed Data. We relied on computer-processed data to
   perform this audit. Specifically, we obtained and analyzed USACE computer
   processed data originating from the Corps of Engineers Financial Management
   System (CEFMS) from the USACE Finance Center and the USACE Wilmington
   and Mobile Districts. We did not assess the reliability of the CEFMS information
   used nor the general and application controls of CEFMS during this audit.
   However, not testing CEFMS general and application controls did not affect the
   results of our audit.


                                      11
    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the DoD Contract Management high-risk area.

Prior Coverage
    During the past 5 years, GAO has published testimonies, and the Naval Audit
    Service has issued a report relating to the contracts for Hurricane Katrina
    recovery efforts. Unrestricted GAO testimonies can be accessed over the Internet
    at http://www.gao.gov. Unrestricted Naval Audit Service reports can be accessed
    at http://www.hq.navy.mil/NavalAudit.

    GAO
           GAO Testimony No. GAO-06-714T, “Improving Federal Contracting
           Practices in Disaster Recovery Operations,” May 4, 2006

           GAO Testimony No. GAO-06-622T, “Planning for and Management of
           Federal Disaster Recovery Contracts,” April 10, 2006

    Naval Audit Service
           Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
           February 16, 2006




                                       12
Appendix B. Congressional Requests




                     13
14
15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Chief of Engineers, United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                          16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Dana E. Whiting
Kenneth W. Lambert
Joshua H. Hickman
Scott E. Kontor
Ralph E. Dickison
Erin S. Hart
Ann Thompson




                                   17
